                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


               Review of NRC’s Significance Determination
                                Process


                      OIG-02-A-15       August 21, 2002




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                             August 21, 2002




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



       FROM:                  Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S SIGNIFICANCE DETERMINATION
                              PROCESS (OIG-02-A-15)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s
Significance Determination Process (SDP). This report reflects the results of our review to
determine whether SDP is achieving its objectives, staff clearly understand the process, and
staff are using the process in accordance with agency guidance.

NRC staff, licensees, and stakeholders view SDP as an improvement over NRC’s previous
method for establishing the significance of inspection findings. While SDP is meeting its
objectives and agency staff are using SDP in accordance with guidance, additional refinements
are needed. Specifically, NRC should (1) develop an action plan to correct Phase 2 analysis
weaknesses or eliminate this portion of the SDP, because Phase 2 provides conservative
results that have been subsequently changed, is used infrequently, and adds cost and time to
the process; (2) discontinue the expenditure of about $1,050,000 remaining to develop Phase 2
until the action plan is completed, (3) provide guidance for using information from licensee risk
assessments in SDP evaluations; (4) take action to improve SDP timeliness; (5) improve its
web site to more fully inform the public; and (6) improve SDP training and guidance. These
refinements will help to ensure that SDP is implemented successfully.

This report makes 11 recommendations to help enhance SDP effectiveness.

The comments your office provided at a March 19, 2002, exit meeting and in your
August 13, 2002, written response to the draft report have been incorporated into the report,
where appropriate. Appendix D contains the written response in its entirety.

If you have any questions, please call Russ Irish at 415-5972 or me at 415-5915.

Attachment: As stated

cc:    J. Craig, OEDO
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      G. Hornberger, ACNW
      G. Apostolakis, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      W. Kane, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      M. Virgilio, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSTP
      F. Congel, IRO
      M. Federline, NMSS
      R. Zimmerman, RES
      J. Johnson, NRR
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                                                Review of NRC’s Significance Determination Process


EXECUTIVE SUMMARY

    BACKGROUND

          The United States Nuclear Regulatory Commission (NRC) regulates the Nation’s
          103 operating commercial nuclear power plants through its reactor oversight
          program. NRC staff use inspection findings and performance indicators to
          assess plant operations within a framework of seven “cornerstones” of safety. A
          key feature of the inspection program is the significance determination process
          (SDP).

          SDP is a series of analytical steps that NRC staff use to evaluate inspection
          findings. The process uses four colors — Green, White, Yellow, and Red — to
          indicate the significance of inspection findings. NRC provides the public with the
          results of its inspections and performance assessments on its web site and
          through public meetings. SDP evaluations are generally specific to each
          cornerstone of safety.

    PURPOSE

          The objectives of the audit were to determine whether (1) SDP is achieving
          desired results, (2) NRC staff clearly understand it, and (3) NRC staff are using
          SDP in accordance with agency guidance.

    RESULTS IN BRIEF

          NRC staff, licensees, and stakeholders view the significance determination
          process as an improvement over NRC’s previous method for establishing the
          significance of inspection findings. While SDP is meeting its objectives and
          agency staff are using SDP in accordance with guidance, additional refinements
          are needed. Specifically, NRC should (1) develop an action plan to correct
          Phase 2 analysis weaknesses or eliminate this portion of the SDP, because
          Phase 2 provides conservative results that have been subsequently changed, is
          used infrequently, and adds cost and time to the process; (2) discontinue the
          expenditure of about $1,050,000 remaining to develop Phase 2 until the action
          plan is completed, (3) provide guidance for using information from licensee risk
          assessments in SDP evaluations; (4) take action to improve SDP timeliness;
          (5) improve its web site to more fully inform the public; and (6) improve SDP
          training and guidance. These refinements will help to ensure that SDP is
          implemented successfully.

    RECOMMENDATIONS

          This report makes 11 recommendations to help enhance SDP effectiveness. A
          consolidated list of recommendations is on page 17.




                                          iii
                                         Review of NRC’s Significance Determination Process

AGENCY COMMENTS

     On August 13, 2002, the Executive Director for Operations (EDO) provided a
     response to our April 10, 2002, draft report. We modified the report as we
     determined appropriate in response to comments provided at a March exit
     meeting and in the EDO’s August 13 response. The EDO’s response can be
     found at Appendix D.




                                    iv
                                            Review of NRC’s Significance Determination Process


ABBREVIATIONS AND ACRONYMS

    NRC     United States Nuclear Regulatory Commission
    OIG     Office of the Inspector General
    PRA     probabilistic risk assessment
    SDP     significance determination process




                                     v
                    Review of NRC’s Significance Determination Process




[Page intentionally left blank.]




              vi
                                                                    Review of NRC’s Significance Determination Process


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

    I. BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    II. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

    III. FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

              A.         DEVELOP AN ACTION PLAN TO CORRECT PHASE 2 ANALYSIS W EAKNESSES
                         OR ELIMINATE IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

              B.         PROVIDE GUIDANCE FOR USING LICENSEE RISK ASSESSMENT INFORMATION
                         IN SDP EVALUATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

              C.         TAKE ACTION TO IMPROVE SDP TIMELINESS . . . . . . . . . . . . . . . . . . . . . . . 9

              D.         IMPROVE THE W EB SITE TO MORE FULLY INFORM THE PUBLIC . . . . . . . . . 11

              E.         IMPROVE SDP TRAINING AND GUIDANCE . . . . . . . . . . . . . . . . . . . . . . . . . 14

    IV. CURRENT MANAGEMENT ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

    V. CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 17

    VI. OIG DISCUSSION OF AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          APPENDIXES

              A.         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

              B.         REACTOR OVERSIGHT PROCESS PERFORMANCE AREAS AND
                         CORNERSTONES - CHART . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

              C.         REACTOR OVERSIGHT PROCESS PERFORMANCE AREAS AND
                         CORNERSTONES - DESCRIPTION . . . . . . . . . . . . . . . . . . . . . . . . . . 23

              D.         AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                     Review of NRC’s Significance Determination Process




[Page intentionally left blank.]




              viii
                                             Review of NRC’s Significance Determination Process


I. BACKGROUND

        The United States Nuclear Regulatory Commission’s (NRC) mission is to ensure
        adequate protection of the public health and safety, the common defense and
        security, and the environment in the civilian use of nuclear materials in the
        United States. As part of this responsibility, the agency regulates the Nation’s
        103 operating commercial nuclear power plants.

        NRC uses its reactor oversight process to monitor the safety performance of
        nuclear power plants and verify that they are being operated by licensees in
        accordance with agency regulations. In April 2000, after incorporating lessons
        learned from a 6-month pilot program, NRC implemented a revised reactor
        oversight process that is less subjective than the previous process and focused
        on areas of greatest safety significance.

        The revised oversight process assesses three key performance areas: reactor
        safety, radiation safety, and safeguards. This report focuses primarily on the
        reactor safety performance area. Each area contains “cornerstones” of safety
        that reflect the essential aspects of safe plant operation. NRC staff use
        inspection findings and performance indicators to assess plant operations within
        the cornerstones. Satisfactory licensee performance in each cornerstone
        provides reasonable assurance of safe facility operation. Appendix B shows the
        performance areas and cornerstones within NRC’s regulatory framework and
        Appendix C describes the cornerstones.

        A key feature of the new oversight process is the significance determination
        process (SDP) used for evaluating the safety significance of inspection findings.
        SDP objectives are to (1) characterize the significance of an inspection finding
        for the NRC licensee performance assessment process, using risk insights as
        appropriate; (2) provide all stakeholders an objective and common framework for
        communicating the potential safety significance of inspection findings; and
        (3) provide a basis for assessment and/or enforcement actions associated with
        an inspection finding. SDP evaluations are generally specific to each
        cornerstone of safety.

        Nuclear power plant safety is based, in part, on having multiple systems or
        components available to control equipment malfunctions or other adverse events
        that may occur during plant operations. Licensee staff and NRC inspectors
        identify degraded or deficient conditions, and NRC staff evaluate this information
        using SDP to determine what actions NRC should take in response. Evaluation
        of inspection findings using SDP provides one of the following results.




                                         1
                                      Review of NRC’s Significance Determination Process


  Result                    Safety significance of the finding
  Green finding             Very low safety significance
                             Low to moderate safety significance
  Yellow finding             Substantial safety significance
  Red finding                High safety significance

In general, SDP colors indicate the seriousness of the degraded or deficient
conditions. For example, in the reactor safety performance area, a Green finding
indicates that three or more systems were available to mitigate a condition, no
matter how frequently it occurs. In contrast, a Red finding indicates that one or
no systems were available to mitigate the condition, even if the condition occurs
infrequently. The following are examples of findings in the reactor safety area at
each level of risk significance:

       Green: A licensee incorrectly scheduled preventive maintenance for an
emergency diesel generator. As a result, the generator was taken out of service
unnecessarily. This increased the unavailability of a safety system component.
This condition was of very low safety significance because additional mitigating
equipment was available during the period the generator was out-of-service for
maintenance.

        White: A piece of hose became lodged in the intake of an important
pump, rendering the pump inoperable for more than the allowable number of
hours while the plant was operating. This condition resulted in a mitigating
safety system also being inoperable during that time and was determined to
have low to moderate safety significance.

       Yellow: A licensee did not complete a required maintenance activity in
accordance with procedures. This error likely led to the failure of an auxiliary
pump which provides cooling water to the steam generators when the main
water supply is unavailable. This issue had substantial safety significance based
on the pump’s function and the length of time the condition persisted.

        Red: A licensee’s overall direction and execution of steam generator
examinations was deficient. As a result, flawed steam generator tubing was left
in service. These deficiencies resulted in a significant reduction in safety margin
while the plant was operating because of the increased probability of a tube
failure. Subsequent to the examination, one tube failed during operations.

For greater-than-Green findings (White, Yellow, or Red), NRC gives licensees
the choice of accepting NRC’s decision or presenting additional information that
might change the color of a finding. If the licensee provides further information,
NRC regional office staff, with headquarters’ participation, make a final decision
on the significance/color of the finding. If the licensee disagrees with the
decision, it may appeal to the appropriate NRC regional administrator.


                                 2
                                               Review of NRC’s Significance Determination Process

          The agency uses its web site and public meetings to inform the public of
          inspection findings and performance assessments.


II. PURPOSE

          The objectives of this audit were to determine whether (1) SDP is achieving
          desired results, (2) NRC staff clearly understand the process, and (3) NRC staff
          are using SDP in accordance with agency guidance. Appendix A provides
          additional information about the scope and methodology.


III. FINDINGS

          NRC staff, licensees, and stakeholders view the significance determination
          process as an improvement over NRC’s previous method for establishing the
          significance of inspection findings. While SDP is meeting its objectives and
          agency staff are using SDP in accordance with guidance, additional refinements
          are needed. Specifically, NRC should (1) develop an action plan to correct
          Phase 2 analysis weaknesses or eliminate this portion of the SDP, because
          Phase 2 provides conservative results that have been subsequently changed, is
          used infrequently, and adds cost and time to the process; (2) discontinue the
          expenditure of about $1,050,000 remaining to develop Phase 2 until the action
          plan is completed, (3) provide guidance for using information from licensee risk
          assessments in SDP evaluations; (4) take action to improve SDP timeliness;
          (5) improve its web site to more fully inform the public; and (6) improve SDP
          training and guidance. These refinements will help to ensure that SDP is
          implemented successfully.

     A.   DEVELOP AN ACTION PLAN TO CORRECT PHASE 2 ANALYSIS
          WEAKNESSES OR ELIMINATE IT

          Phase 2 analysis is intended to enable inspection staff to characterize the risk
          associated with inspection findings in the reactor safety performance area.
          However, Phase 2 analyses have not been effective because (1) the risk
          information used is incomplete, (2) Phase 2 was designed to give generally
          conservative results, and (3) inspectors use it infrequently. These factors have
          led to Phase 2 results that have been subsequently changed and decreased
          public confidence in the process. In addition, continuing to develop guidance for
          Phase 2 analysis is producing unnecessary program duplication and costs.
          Although NRC will expend more than $2.2 million to develop and implement
          Phase 2, the agency is also developing more complete computer-based models
          that can be used to perform these analyses. Because there are significant
          questions about the usefulness of Phase 2 analysis, the agency needs to
          prepare an action plan to correct Phase 2 weaknesses or eliminate it. In
          addition, until the action plan is complete, NRC should discontinue expenditure
          of about $1,050,000 remaining to develop Phase 2.



                                          3
                                                 Review of NRC’s Significance Determination Process

    Phase 2 Analysis

    NRC’s inspection manual provides guidance for evaluating the risk significance
    of a finding in each cornerstone of safety. First, inspectors perform pre-SDP
    steps to screen out minor issues. After the initial screening, inspectors use SDP
    to evaluate the significance of findings. In the reactor safety strategic
    performance area, the reactor safety SDP provides for a three-phase analysis of
    inspection findings. The three phases are:

    Phase 1:          Phase 1 analysis is a characterization of the finding and initial
                      screening of very low safety significance findings (Green) for
                      disposition by the licensee's corrective action program. Most
                      inspection issues do not proceed beyond Phase 1.

    Phase 2:          For more significant inspection issues, Phase 2 analysis is used to
                      determine the potential risk associated with the finding. The
                      agency intended that, when NRC officials agreed on the results of
                      the Phase 2 analysis, the final results would be documented in an
                      inspection report and no further review would be needed.

    Phase 3:          Phase 3 analysis relies on more advanced risk assessment
                      techniques and is intended to confirm or modify Phase 2 results.

             Phase 2 Risk Information Is Incomplete

    Guidance for performing Phase 2 risk analysis is based on information from risk
    assessments licensees submitted to NRC in the early 1990s1 and on recent site
    visits to update the information. Those assessments did not address the impact
    of certain events on the plant (i.e., internal fires, high winds/tornadoes,
    transportation accidents, external floods, and earthquakes). However, these
    events, especially internal fires, can have considerable influence on risk in plant
    operations. This limitation extends to Phase 2 evaluations, which do not
    consider the impact of external events. As a result, to consider the potential
    impact of external events, NRC must perform Phase 3 analysis.

             Phase 2 Analysis Was Designed To Give Generally Conservative
             Results

    NRC designed Phase 2 analysis to produce generally conservative results.
    Conservative results tend to err on the side of caution; to be more likely to
    identify findings as preliminarily more safety significant than they are. For



1
    NRC required all power plants to develop Individual Plant Examinations in a Generic Letter,
    Individual Plant Examination For Severe Accident Vulnerabilities - 10 CFR 50.54(f) (Generic Letter
    No. 88-20), November 23, 1988. The general purpose of the examination was for each utility to
    perform a systematic examination to identify any plant-specific vulnerabilities to severe accidents
    [risk assessments] and report the results to the Commission.



                                            4
                                                 Review of NRC’s Significance Determination Process

    example, Phase 2 analysis might characterize a finding as Yellow, while a more
    sophisticated analysis would result in a White finding.

    One NRC official estimated that 30 to 40 percent of inspection findings initially
    characterized as greater-than-Green are subsequently reduced to a lower risk
    significance level. This can occur, for example, when more accurate risk
    information is provided by licensees. Between April 2000 and February 2001, 3
    of 10 findings using the reactor safety SDP, initially evaluated as greater-than-
    Green, were reduced to Green findings.

            Phase 2 Analysis Is Used Infrequently

    Phase 1 and 2 analyses are intended to be accomplished primarily by field
    inspectors2 and their first-line managers. However, these inspectors use Phase
    2 infrequently. There are more than 130 resident inspectors at nuclear power
    plants. However, only 11 issues were screened in Phase 2 during the first year
    of the new oversight process (April 2000 - April 2001) so the great majority of
    inspectors did not use Phase 2 analysis. Resident inspectors stated that their
    infrequent use of Phase 2 analysis led to an inability to effectively use that part of
    SDP. As a result, inspectors are unable to evaluate various issues that surface
    and NRC risk experts are providing assistance for Phase 2 analyses.

            Phase 2 Analysis Results Have Not Been Final

    NRC expected that when staff and management agreed on Phase 2 analysis
    results, no further review would be needed. However, during the first year of the
    new oversight process, Phase 2 analysis did not provide a final characterization
    for any inspection finding. In that period, 632 findings were initially characterized
    as Green and 26 were initially characterized as greater-than-Green. Phase 2
    analysis was applied to each of the 11 findings that used the reactor safety SDP
    and were initially characterized as greater-than-Green.3 Although Phase 2
    analysis was intended to provide a final significance determination, all 11 were
    also evaluated using Phase 3 analysis. Based on the additional analysis, 2 of
    the 11 findings were eventually characterized as Green and 9 as greater-than-
    Green. In addition, NRC guidance states that the significance of greater-than-
    Green inspection findings will be confirmed by a Phase 3 analysis.

            Decreased Public Confidence

    Building and maintaining public trust is an important performance goal for NRC.
    In addition, the agency strives toward regulation that is based on the best
    available knowledge from research and operational experience. Phase 2 results
    that are subsequently changed have a negative impact on the public’s

2
    “Field inspectors” is used here to mean inspectors resident at power plants and also region-based
    inspectors.
3
    The remaining 15 findings initially characterized as greater-than-Green were in other SDP areas.



                                           5
                                      Review of NRC’s Significance Determination Process

confidence in NRC’s position on findings. In fact, members of the public have
expressed concern about the reductions in finding colors. One stakeholder
described the reductions as NRC “negotiating” with licensees and “losing” the
discussion. Another stakeholder cited the failure of an important feedwater
pump which NRC initially determined to be a Yellow finding yet months later
reduced to a White finding. The stakeholder noted that these “changed-on-
appeal” determinations give the appearance of “collusion, political intimidation, or
incompetence.”

       Program Duplication and Costs

NRC has been developing guidance for performing Phase 2 analysis for each
power plant since fiscal year 2000. An NRC official estimated the total cost of
that effort to be $2.2 million. About $1,050,000 remains to be expended in fiscal
years 2002-2004 to complete the project. Additionally, maintenance costs of
$250,000 per year have been budgeted for fiscal years 2004 and 2005.

In addition, since 1999, NRC has been developing computer-based models to
increase its ability to perform more comprehensive risk analyses. Results from
these models are more detailed and more complete than results from Phase 2
analysis. This effort reflects NRC’s policy to use state-of-the-art risk assessment
methods whenever practicable. An NRC official estimated these more detailed
models will cost about $3.5 million and should be completed in 2004.

Phase 2 has been in development and use for more than 2 years, and is being
used to make important regulatory decisions. However, a senior agency official
acknowledged that there are still important Phase 2 development issues that
may take 2 to 3 years to resolve. Because there are significant questions about
its usefulness, the agency needs to prepare an action plan to correct these
weaknesses or eliminate Phase 2. In addition, until the action plan is complete,
NRC should discontinue expenditure of about $1,050,000 remaining to develop
Phase 2.

RECOMMENDATIONS

The Office of the Inspector General (OIG) recommends that the Executive
Director for Operations:

1.     Develop an action plan by September 6, 2002, to correct Phase 2
       weaknesses or eliminate it.

2.     Discontinue expenditure of about $1,050,000 remaining to develop Phase
       2 until the action plan is complete.




                                 6
                                            Review of NRC’s Significance Determination Process

B.   PROVIDE GUIDANCE FOR USING LICENSEE RISK ASSESSMENT
     INFORMATION IN SDP EVALUATIONS

     Effective risk-informed regulation of nuclear power plants should be anchored in,
     among other things, risk assessments that define the safety significant
     structures, systems, or components of a power plant. SDP relies on risk
     information provided by NRC licensees and the agency has stated that it will
     require risk assessment quality commensurate with the particular use. NRC
     provides guidance for using risk information in areas other than SDP. However,
     NRC experts evaluating the quality of licensee risk information for SDP use must
     rely, for example, on their personal knowledge of plant operations or on NRC’s
     computer-based risk models, which are primarily based on risk information
     provided by licensees. Although NRC’s Strategic Plan emphasizes the
     importance of its regulatory independence, the agency has not developed
     guidance for an independent verification process to provide assurance that
     licensee risk assessment results are acceptable for SDP purposes and provide a
     sound basis for regulatory decisions.

     Risk Assessment

     Risk assessments systematically examine complex systems to identify and
     estimate the public health, environmental, and economic risks of nuclear plants.
     They attempt to quantify the probabilities and consequences of an accident’s
     occurrence. By their nature, risk assessments are statements of uncertainty that
     identify and assign probabilities to events.

     Probabilistic risk assessment (PRA) is a risk assessment methodology used in
     the nuclear power industry that systematically answers (1) what can go wrong
     (accident scenarios)?, (2) how likely is it to occur (probability or frequency)?, and
     (3) what will be the outcome (consequences)? SDP utilizes information from
     licensee PRAs to analyze the significance of inspection findings, primarily in the
     reactor safety performance area.

     Within NRC, senior reactor analysts have significant responsibilities related to
     the use of these licensee risk assessments. These experts are generally
     responsible for evaluating the potential risk significance of plant events and
     inspection findings.

     NRC’s Strategic Plan emphasizes the importance of the agency’s regulatory
     independence and states that NRC must be viewed as an independent and
     reliable regulator. The agency has committed to requiring PRA quality
     commensurate with the particular use of the information. Maintaining the quality
     of the technical basis for NRC decisions, which includes licensee PRA
     information, helps NRC to ensure adequate protection of public health and
     safety, and the environment. In addition, public confidence is enhanced when
     the agency is consistent in carrying out its mission in a thorough, disciplined, and
     timely manner. To accomplish these goals, staff require clear guidance for
     assessing the quality of licensees’ PRA information.


                                       7
                                               Review of NRC’s Significance Determination Process

            NRC Provides Guidance for Using PRA Information in Other Areas

    NRC uses licensee PRA information in many of its regulatory activities, and
    agency staff ensure this information is of sufficient scope and technical quality
    for those activities. NRC determines, on an application-specific basis, whether
    licensee PRA information is of sufficient quality to support its use when making
    regulatory decisions. For example, NRC established a framework for using
    licensees’ PRA information in licensing actions4 and provided guidance for
    determining whether that risk information is acceptable to use for those actions.
    Such guidance helps ensure consistent, thorough, and disciplined regulation.

            Guidance Is Needed for Ensuring PRA Information Is Acceptable

    Information from licensee risk assessments generally forms the basis of SDP
    Phase 2 and Phase 3 analysis used in the reactor safety performance area.
    NRC staff use this information in evaluating potentially greater-than-Green
    findings. In addition, to augment NRC’s SDP evaluation, a licensee may provide
    risk information to support its position on the significance of an inspection
    finding. This additional information must also be evaluated for adequacy.
    Currently, NRC senior reactor analysts evaluating licensee risk assessments
    must rely, for example, on their personal knowledge of plant operations or on
    NRC’s computer-based risk models, which are also based on risk information
    provided by licensees.

    Senior NRC officials confirmed that the agency is highly reliant on information
    from licensee risk assessments. Agency officials also noted that there are no
    PRA standards, no requirements for licensees’ PRAs to be updated or accurate,
    and that the quality of the assessments varies considerably among licensees.
    NRC officials stated that they depend on NRC’s senior reactor analysts to
    determine the acceptability of licensee risk assessments.

    The importance of assessing the acceptability of licensee PRA data was
    highlighted by senior reactor analysts who stated they have identified errors in
    licensee PRAs. Those errors could impact the validity of a final determination of
    the risk significance of a finding.

    However, despite its importance, NRC has not provided guidance for using
    licensee PRA information in SDP evaluations. Such guidance would, for
    example, specify an acceptable level of documentation that would enable staff to
    conclude that the licensee has performed a sufficiently comprehensive and
    acceptable PRA analysis.




4
    “Licensing actions” are licensee requests, such as license amendments or exemptions, that
    require review and approval by NRC staff before they may be implemented by the licensee. Some
    licensing actions use PRA information.



                                         8
                                               Review of NRC’s Significance Determination Process

             Lack of Sound Basis for Regulatory Decisions

     NRC senior reactor analysts confirmed they do not have guidance for reviewing
     and validating licensee risk assessments. As one NRC risk expert stated,
     independent assessment tools to determine the acceptability of licensees’ PRAs
     “do not exist.” Without such assurance, questions exist as to whether SDP risk
     evaluations are providing a sound basis for regulatory decisions.

     RECOMMENDATIONS

     OIG recommends that the Executive Director for Operations:

     3.      Develop and implement guidance for using PRA in SDP.

     4.      Develop and implement guidance for providing independent assurance of
             the quality of licensee risk information used to support SDP decisions.

C.   TAKE ACTION TO IMPROVE SDP TIMELINESS

     NRC’s performance goals include making agency activities and decisions more
     effective, efficient, and realistic. The goals also call for the agency to establish
     program metrics and a method for addressing identified inefficiencies. NRC
     officials and stakeholders have expressed concerns that SDP evaluations are
     not timely. In addition, an internal review found a “substantive” increase in the
     amount of time it takes to process greater-than-Green findings under SDP when
     compared to the previous program. However, current metrics do not capture the
     entire process. As a result, agency managers are not able to effectively monitor
     the entire process and ensure that delays are resolved and inefficiencies are
     addressed.

     SDP Evaluations Are Not Timely

     NRC’s inspection manual states that staff should make the final determination of
     the significance of a finding within 90 days following the exit meeting at which the
     licensee was officially notified of the finding. However, the 90-day goal does not
     reflect the time it takes to complete the entire process. Although time expended
     prior to the exit meeting is not tracked, a number of SDP activities may take
     place in that period. For example, initial assessment of a finding and the SDP
     and Enforcement Review Panel5 are typically completed prior to the exit meeting
     with the licensee.




5
     The SDP and Enforcement Review Panel provides a management review of potential findings and
     related apparent violations.



                                         9
                                               Review of NRC’s Significance Determination Process

    In a recent NRC assessment of the reactor oversight process, stakeholders were
    critical of the time taken to finalize the safety significance of findings.6 One
    stakeholder pointed out that lower risk-significant issues are resolved more
    rapidly than higher risk-significant issues but that higher risk-significant issues
    should be resolved more quickly due to their greater safety significance. NRC
    officials also stated that there were many instances where evaluating findings
    using SDP took too long. For example, NRC regional officials expressed
    concerns about delays in obtaining information needed from NRC headquarters
    related to finding evaluations. One item of requested information was more than
    300 days overdue and another issue being jointly evaluated was more than 440
    days behind schedule.

    An NRC internal review of SDP timeliness found that the time it took to process
    escalated findings (greater-than-Green under SDP) had increased substantially
    as a result of implementing SDP. The review also found that pre-exit
    assessment activities (from the date of the “event” or from NRC identification of
    the issue) increased the average process time by approximately 53 days; from
    98 to 151.

            Metrics Do Not Capture the Entire Process

    Time elapses between the date of the finding “event” itself and the date NRC
    inspectors identify the issue and begin to evaluate it. OIG found that NRC
    managers do not monitor this span of time, and, therefore, may not identify and
    address related delays that may occur. NRC needs to monitor this interval to
    ensure that the entire inspection process is effective in identifying performance
    problems at power plants.

            Management Actions

    During this audit, NRC’s Office of Enforcement recommended expanding SDP
    metrics to include processing time prior to exit meetings.7 NRC assigned a
    senior manager to monitor SDP timeliness and to provide weekly reports for
    management review, flagging potentially untimely SDP results for increased
    management attention. NRC also revised the reactor oversight process to
    systematically monitor key SDP timeliness metrics. NRC regional offices submit
    data quarterly to support the self-assessment process. However, these actions
    still do not capture the entire process of identifying and assessing findings and
    additional actions are needed to improve timeliness.




6
    October 16, 2001, First Annual Reactor Oversight Process Self-Assessment Report.

7
    NRC Office of Enforcement; Audit of the Timeliness of Escalated Cases Handled Under the
    Revised Reactor Oversight Program; August 2, 2001.



                                         10
                                                                Review of NRC’s Significance Determination Process

                      RECOMMENDATIONS

                      OIG recommends that the Executive Director for Operations:

                      5.       Establish metrics to capture the entire process of identifying and
                               assessing findings.

                      6.       Establish a mechanism for agency managers to resolve identified delays.

          D.          IMPROVE THE WEB SITE TO MORE FULLY INFORM THE PUBLIC

                      The revised reactor oversight process is consistent with NRC’s goal of providing
                      information to enhance the public’s confidence that the agency is carrying out its
                      mission. To that end, information about inspection findings is posted at NRC’s
                      web site.8 However, NRC’s web site does not provide information about
                      inspection findings sufficient for the public to make informed decisions about
                      plant performance and NRC oversight. This is because important information is
                      missing. Specifically, additional information is needed in the inspection findings
                      summary and NRC should more fully document licensee corrective actions.
                      Providing this information will help to increase the public’s understanding of, and
                      confidence in, NRC’s oversight process.

                      Additional Information Is Needed in the Inspection Findings Summary

                      NRC uses its web page to provide information to the public about the agency’s
                      oversight of power plants, including inspection findings and SDP results. Table 1
                      shows an example of the Inspection Findings Summary table for a plant. The
                      summary shows the seven cornerstone areas and the most significant final
                      finding color, over the previous four quarters, as of a given date in each
                      cornerstone.


                           Table 1: Inspection Findings Summary for a Sample Plant
                                                                      Occupational      Public
              Initiating      Mitigating   Barrier     Emergency      Radiation         Radiation    Physical
Plant         Events          Systems      Integrity   Preparedness   Safety            Safety       Protection

Plant 1       Green           Green        White       Green          No findings       Yellow       No findings



                      OIG reviewed a judgmental sample of inspection findings and determined that:

                      C        Inspection reports do not show final results for greater-than-Green
                               findings because licensees can provide additional information related to
                               the finding after the inspection report is issued. Therefore, inspection


          8
                      http://www.nrc.gov/NRR/OVERSIGHT/ASSESS/index.html



                                                           11
                                                Review of NRC’s Significance Determination Process

            reports show some finding results as “to-be-determined”. However, the
            NRC letter to licensees specifying the final color for findings9 is not linked
            to the web page. For example, one White finding was shown as a
            “preliminary” Yellow finding in the inspection report but there is no
            information available at the web page to tell the public why the finding
            appears as White in the findings summary table.

    C       The web site does not provide complete inspection report results. The
            text summaries supporting the inspection findings summary table discuss
            Green and greater-than-Green findings and provide a link to inspection
            reports containing those findings. However, there is no discussion of or
            links to inspection reports where no operational deficiencies were
            observed. Therefore, the public does not see the complete picture of
            plant inspection results.

    C       Only one color is displayed in the findings summary for each cornerstone.
            For example, if a licensee has both Yellow and White findings in a
            cornerstone, only the most risk significant—the Yellow finding—will be
            displayed. To ensure that the public can make reasoned judgments
            about a plant’s performance, such additional information should be
            available.

    RECOMMENDATIONS

    OIG recommends that the Executive Director for Operations:

    7.      Revise the web page to provide a link from the findings summary web
            pages to documents that support any changes from preliminary
            inspection report significance determinations.

    8.      Expand the web page to provide complete access to inspection report
            results, not just those that identify operational deficiencies.

    9.      Expand the web page to display all significant finding colors in a
            cornerstone.

    NRC Should More Fully Document Licensee Corrective Actions

    NRC enforcement actions focus on ensuring that the licensee is taking corrective
    actions. In accordance with that, the Commission requested that staff
    emphasize the importance of licensee corrective action programs in ongoing
    communication efforts. NRC guidance directs staff to discuss licensee corrective
    actions in inspection reports, but information about licensee corrective actions is



9
    After the SDP and Enforcement Review Panel agrees on the final determination of significance,
    the licensee is informed of the final color of the finding in a letter.



                                          12
                                      Review of NRC’s Significance Determination Process

not generally available at the web site. As a result, the public cannot readily
obtain this important information.

Based on the importance of licensee corrective actions and requirements to
discuss corrective actions in inspection reports, OIG reviewed information at the
oversight process web site to determine whether NRC is providing the public with
information about licensee corrective actions. OIG found that the Plant
Assessment Results web page describing NRC’s policies for the assessment of
plant performance does not discuss licensee corrective actions.

Accessing and reading inspection reports, which can be highly technical and
lengthy, is a time-consuming process. Therefore, NRC summarizes information
about inspection findings in a short text description that is accessed via links in
the inspection findings summary table. Important information about findings
should be located in the text summary, including licensee corrective actions.
Table 2 shows the results of OIG’s review of the short text descriptions of
inspection findings for three plants.


Table 2: Inspection finding descriptions that include corrective action
 Finding Color/Plant        Number of            Number - Text description
                            findings             mentions corrective action



  Point Beach 1             12                   2

  Harris 1                  6                    1

  Seabrook 1                9                    1



  Harris 1                  1                    1

  Seabrook 1                1                    0



These results indicate that the oversight process web site does not provide
adequate information to the public in this important area. Although the
Commission has emphasized the importance of licensee corrective actions and
the new oversight process places additional focus on corrective action, there is
no general information available at the Plant Assessment Results web page
about licensee corrective actions. In addition, there is only infrequent mention of
corrective action in the inspection findings summaries. Because of the
importance of licensee corrective actions to the effective regulation of power
plants, information about those actions should be readily available to the public.
Lacking this information, the public cannot be fully informed of how licensees are
addressing performance deficiencies at their plants.




                                 13
                                            Review of NRC’s Significance Determination Process

     RECOMMENDATION

     OIG recommends that the Executive Director for Operations:

     10.    Revise the web site to fully describe licensee corrective action related to
            each finding.

E.   IMPROVE SDP TRAINING AND GUIDANCE

     Resident inspectors provide NRC’s major onsite presence for direct observation
     and verification of licensee activities. To effectively use SDP, these inspectors
     must have specific training and guidance. However, results from an agency
     internal survey and interviews during this audit indicate that opportunities exist to
     improve SDP training and guidance. Suggestions from NRC staff indicate the
     agency has not been sufficiently proactive in identifying potential improvements
     in these areas. The agency needs to revise its periodic survey of inspectors and
     others working with SDP to specifically identify evolving training and guidance
     needs. With these improvements, inspectors will be more effective in monitoring
     and assessing conditions at power plants.

     Staff Suggested Improvements

     Resident inspectors are a critical component of NRC’s inspection program.
     These inspectors must have the necessary knowledge, skills, and guidance to
     successfully implement the agency’s oversight process. In November 1999,
     NRC conducted a survey to obtain feedback on the revised reactor oversight
     program. SDP was viewed negatively primarily because the process was
     perceived as not being easy to use. Limitations noted also included complexity
     and extensive time to use. OIG found that these same difficulties remain, in
     addition to others noted below.

     OIG evaluated SDP-related training and guidance by meeting with a judgmental
     sample of resident inspectors at 10 power plants and others who work with
     resident inspectors, including supervisors and licensee officials. The inspection
     staff were generally working at plants that had been issued a greater-than-Green
     finding and, thus, had more experience using SDP. The following are areas
     where they stated NRC should improve SDP training and guidance.

                    Training

     C      Provide additional training in the application of risk to plant operations.
            For example, inspectors cited a need for more training in (1) relating
            inspection findings to core damage frequency, a key SDP element;
            (2) evaluating licensed operator actions; (3) using PRA information
            specific to their plant; and (4) integrating SDP and enforcement.




                                      14
                                                 Review of NRC’s Significance Determination Process

     C       Provide periodic training for SDPs that residents use only occasionally
             such as plant shutdown, fire protection, and containment integrity.
             Inspectors cannot use them effectively without refresher training to
             compensate for their infrequent use.

                      Guidance

     C       Clarify the initial screening questions that lead into SDP.10 For example,
             several inspectors stated that the term “credible impact on safety” was
             too subjective and difficult to apply. The degree of subjectivity results in
             inconsistent application among inspectors and places additional burden
             on senior reactor analysts to provide clarification. One resident inspector
             noted that staff have extensive debates on the meaning of that term
             because there is wide variation of interpretation.

     C       Clarify guidance on how to address issues that involve more than one
             SDP. In one instance, an issue involved both the fire protection and
             shutdown SDPs and guidance was not clear about which SDP should be
             entered first.

     C       Provide more guidance for reviewing licensee corrective actions and
             examples of licensee corrective action program deficiencies. NRC has
             reduced inspection time in this area although the oversight process
             places more emphasis on licensees taking adequate corrective actions.
             In addition, changes in inspection focus mean that resident inspectors
             may not be able to review all of a licensee’s condition reports. Inspectors
             stated that it is prohibitive at some plants to go through each issue using
             SDP guidance because of the number of corrective action items. A
             mechanism is needed to help run through those more quickly.

     C       Provide guidance on document retention. For example, what should be
             documented and retained for responses to the initial screening
             questions? Without clear guidance, important material may be discarded
             after the inspection report is issued.

     C       Provide guidance on the disposition of issues that are not included in
             inspection reports. Both NRC and licensee officials are encouraging
             inspectors to continue to note minor issues. Residents routinely meet
             with licensee management and discuss issues that are not included in
             inspection reports. Also, these minor issues may be discussed during an
             exit conference. Guidance is needed to ensure that inspectors manage
             these interactions as the agency expects.




10
     These are the Group 1, 2, and 3 questions in NRC’s inspection manual, chapter 0610*.



                                          15
                                              Review of NRC’s Significance Determination Process

        C      Annotate revisions to the inspection manual. Inspectors cannot currently
               determine what has been changed without reading through the entire
               manual and comparing it to the previous version.

        Inspectors are key to SDP implementation. OIG interviews with inspectors and
        other officials indicate that improvements can be made to training and guidance.
        The agency needs to continue examining those needs by periodically surveying
        inspectors and others involved with SDP. NRC most recently surveyed staff
        about the revised oversight process in March 2001. However, survey questions
        were not targeted to training and guidance needs. Improvements based on
        more specific survey questions and results will help the agency provide better
        guidance and training to enable staff to more effectively implement SDP.

        RECOMMENDATION

        OIG recommends that the Executive Director for Operations:

        11.    Revise the NRC Reactor Oversight Process Survey to capture more
               specific information about SDP training and guidance.


IV. CURRENT MANAGEMENT ACTIONS

        Although the new oversight process has been in place since April 2000, the
        agency had not issued guidance for conducting SDP and Enforcement Review
        Panels and regulatory conferences as of OIG’s draft report in March 2002. All
        findings with a potential assessment greater-than-Green are reviewed by an
        SDP and Enforcement Review Panel. In addition, NRC allows licensees to
        request a public regulatory conference with NRC management to discuss
        potential findings. NRC officials said these meetings can lack direction, fail to
        reach conclusions, and can be too lengthy, thereby adding to SDP timeliness
        issues.

        In October 2001, after completing field work in this area, OIG provided
        comments to the agency on a draft attachment to the NRC inspection manual.
        The attachment provides guidance for conducting SDP and Enforcement Review
        Panels, regulatory conferences, and caucuses. OIG suggested modifications to
        the guidance to address issues related to timeliness and the effective functioning
        of the meetings, among other things. In April 2002, NRC issued final guidance
        which should address OIG’s concerns in this area.




                                         16
                                              Review of NRC’s Significance Determination Process



V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Develop an action plan by September 6, 2002, to correct Phase 2
               weaknesses or eliminate it.

        2.     Discontinue expenditure of about $1,050,000 remaining to develop Phase
               2 until the action plan is complete.

        3.     Develop and implement guidance for using PRA in SDP.

        4.     Develop and implement guidance for providing independent assurance of
               the quality of licensee risk information used to support SDP decisions.

        5.     Establish metrics to capture the entire process of identifying and
               assessing findings.

        6.     Establish a mechanism for agency managers to resolve identified delays.

        7.     Revise the web page to provide a link from the findings summary web
               pages to documents that support any changes from preliminary
               inspection report significance determinations.

        8.     Expand the web page to provide complete access to inspection report
               results, not just those that identify operational deficiencies.

        9.     Expand the web page to display all significant finding colors in a
               cornerstone.

        10.    Revise the web site to fully describe licensee corrective action related to
               each finding.

        11.    Revise the NRC Reactor Oversight Process Survey to capture more
               specific information about SDP training and guidance.




                                        17
                                              Review of NRC’s Significance Determination Process


VI. OIG DISCUSSION OF AGENCY COMMENTS

         On March 19, 2002, OIG discussed its initial draft report with agency officials
         who generally agreed with OIG’s recommendations. Also in March, NRC began
         an SDP Improvement Initiative. That initiative plans numerous, important
         improvements to the process, some of which are also noted in this report.

         On August 13, 2002, the Executive Director for Operations (EDO) responded to
         our April 10, 2002, final draft report. The EDO stated that he has directed staff
         to develop a plan to address OIG's recommendations and also those of an
         internal review panel which examined some of the same issues. The EDO
         requested that staff provide a final approved plan by September 6, 2002, and
         that the work be completed by November 8, 2002. Where appropriate, this
         report incorporates the agency’s suggestions provided at the March meeting and
         in the EDO’s August 13 response. The EDO's response can be found at
         Appendix D.




                                         18
                                               Review of NRC’s Significance Determination Process

                                                                                     Appendix A
SCOPE AND METHODOLOGY

        The objectives of this audit were to determine whether (1) SDP is achieving
        desired results, (2) NRC staff clearly understand the process, and (3) NRC staff
        are using SDP in accordance with agency guidance. To address the audit
        objectives, OIG reviewed relevant program documentation and conducted
        interviews with more than 80 individuals, including:

        C      NRC headquarters program officials,

        C      senior officials in the reactor safety and materials safety areas at all four
               NRC regional offices;

        C      senior reactor analysts at all four NRC regional offices;

        C      Office of Enforcement officials at NRC regional offices;

        C      NRC resident inspectors at 11 power plants;

        C      a public interest group active in this area;

        C      the Nuclear Energy Institute; and

        C      licensee officials at 10 power plants, including experts in the use of
               probabilistic risk assessment and senior operating officials.

        This audit was conducted from May through October 2001 in accordance with
        generally accepted Government auditing standards and included review of
        management controls related to the objectives of the audit. The major
        contributors to this report were William McDowell, Team Leader; Robert Moody,
        Audit Manager; and David Horn, Senior Auditor.




                                         19
                    Review of NRC’s Significance Determination Process




[Page intentionally left blank.]




              20
                                                                      Review of NRC’s Significance Determination Process

                                                                                                              Appendix B
REACTOR OVERSIGHT PROCESS PERFORMANCE AREAS AND
CORNERSTONES - CHART




               Mission:
                                              Protect Public Health and Safety
                                              in the Operation of Commercial
                                                   Nuclear Power Plants




 Performance Areas:



                             Reactor Safety                                Radiation Safety                 Safeguards




 Cornerstones:


  Initiating              Mitigating           Barrier      Emergency            Occupational    Public
                                                                                                             Physical
   Events                 Systems             Integrity    Preparedness           Radiation     Radiation
                                                                                                             Protection
                                                                                    Safety       Safety




                                                               21
                    Review of NRC’s Significance Determination Process




[Page intentionally left blank.]




              22
                                              Review of NRC’s Significance Determination Process

                                                                                    Appendix C
REACTOR OVERSIGHT PROCESS PERFORMANCE AREAS AND
CORNERSTONES - DESCRIPTION

        Reactor Safety

        Initiating Events - This cornerstone focuses on operations and events at a
        nuclear plant that could lead to a possible accident if plant safety systems did not
        intervene. These events could include equipment failures leading to a plant
        shutdown, shutdowns with unexpected complications, or large changes in the
        plant’s power output.

        Mitigating Systems - This cornerstone measures the function of safety systems
        designed to prevent an accident or reduce the consequences of a possible
        accident. The equipment is checked by periodic testing and through actual
        performance.

        Barrier Integrity - There are three important barriers between the highly
        radioactive materials in fuel within the reactor and the public and the
        environment outside the plant. These barriers are the sealed rods containing the
        fuel pellets, the heavy steel reactor vessel and associated piping, and the
        reinforced concrete containment building surrounding the reactor. The integrity
        of the fuel rods, the vessel, and the piping is continuously checked for leakage,
        while the ability of the containment to prevent leakage is measured on a regular
        basis.

        Emergency Preparedness - Each nuclear plant is required to have
        comprehensive emergency plans to respond to a possible accident. This
        cornerstone measures the effectiveness of the plant staff in carrying out its
        emergency plans. Such emergency plans are tested every 2 years during
        emergency exercises involving the plant staff and local, State, and, in some
        cases, Federal agencies.

        Radiation Safety

        Occupational Radiation Safety - NRC regulations set a limit on radiation doses
        received by plant workers, and this cornerstone monitors the effectiveness of the
        plant’s program to control and minimize those doses.

        Public Radiation Safety - This cornerstone measures the procedures and
        systems designed to minimize radioactive releases from a nuclear plant during
        normal operations and to keep those releases within Federal limits.




                                         23
                                      Review of NRC’s Significance Determination Process

                                                                            Appendix C
Safeguards

Physical Protection - Nuclear plants are required to have well-trained security
personnel and a variety of protective systems to guard vital plant equipment, as
well as programs to assure that employees are constantly fit for duty through
drug and alcohol testing. This cornerstone measures the effectiveness of the
security and fitness-for-duty programs.

In addition to the seven cornerstones, the reactor oversight program features
three “cross-cutting” elements, so named because they affect, and are therefore
part of, each of the cornerstones:

C      human performance;

C      management attention to safety and workers' ability to raise safety issues
       (the "safety-conscious work environment"); and

C      finding and fixing problems (the utility's corrective action program).




                                 24
                       Review of NRC’s Significance Determination Process

                                                             Appendix D

AGENCY COMMENTS




                  25
     Review of NRC’s Significance Determination Process

                                           Appendix D




26
     Review of NRC’s Significance Determination Process

                                           Appendix D




27
